George Grob
Deputy Inspector General for
  Evaluation and Inspections

24-Month Performance Data for Senior Medicare Patrol Projects (OEI-02-97-00523)


Edwin Walker, Director

Office of Program Operations and Development

Administration on Aging



At the request of the Administration on Aging, we have continued to collect performance data

from the 12 senior Medicare patrol projects. The attachment presents cumulative performance

data for the first 24 months on the projects.


We note a number of substantial increases in the performance data over the past 6-month

reporting period. The total number of trainers has almost doubled from 3,700 to 6,300. This

is due primarily to the efforts in Minnesota and New York. We also note that the total number

of beneficiaries educated has almost doubled from 61,000 to 116,000. This is due to increases

in virtually all States. And while the total funds recouped has remained relatively constant, the

number of complaints referred for follow-up and resulting in action have both increased 50

percent to 601 and 138, respectively. Please note that the data contained in the attachment are

self reported, and that we have not verified their accuracy. We believe that these data indicate

that the projects are perfecting their craft, that beneficiaries are responding, and that we can

anticipate increased savings in the future. We will continue to monitor these projects and

provide you with 30-month performance data. If you have any questions, please call me at

(202) 619-0480 or have your staff call Jack Molnar at 

(212) 264-1998.


Attachment 

                                                                                                                                                                           ATTACHMENT
                                                             Senior Medicare Patrol Projects: 2-Year Outcomes

State                                                 RI               IL         PA          MD        CA       MO      MN       IA          HI        WI   NY     NH
Projects                                             Aging          Sub. AAA     CARIE       MD SUA    CHA      Dist. 3 MN SUA   IA SUA      HI SUA    CWAG NY SUA NH SUA              TOTAL
                                                     2000                                                       AAA

INPUTS
$ recruiting retired professionals                     20,000          67,680      35,000          0    21,846 67,824 30,918            0     19,380         0    19,134    64,080      345,862
$ recruiting others                                         0          22,560       5,200          0    42,500   7,120   2,694     37,779          0    16,000    26,480     3,560      163,893
$ training retired professionals                       40,000          82,720      50,000          0   124,944 82,822 10,245            0     38,760         0    17,494    42,720      489,705
$ training others                                      36,862          26,320      15,000      4,760    27,800   8,697 11,869      11,675          0    25,358    35,103     7,120      210,564
$ support retired professionals                        35,836          71,440      20,000          0    48,000 72,410 12,118            0      9,690         0     9,933    32,020      311,447
$ support others                                        4,000          30,080       8,000      5,000    22,600   7,601   8,931     30,811          0    29,400     6,996     7,120      160,539
$ community ed.                                        80,392          41,360      50,000     32,750    29,530 80,011 52,875            0      9,690         0    82,365   194,020      652,993
$ tracking system                                      19,000          33,840      35,000     20,200    22,140   3,833   2,828      1,238          0     1,965     4,167     5,340      149,551
Total $ spent                                         236,090         376,000     218,200     62,710   339,360 330,318 132,478     81,503     77,520    72,723   201,672   355,980    2,484,554
$ received from other sources                               0          22,000     120,000          0         0       0     793          0          0    10,000         0         0      152,793

OUTPUTS

# sessions conducted to train trainers                       6              9          30          2       30       10      22         18         12       45        301        4          489

# retired professionals trained                             73             91          50          0      509       38      93          0         64        0      1,609      280        2,807

# of others trained                                         99             22          12         50       80        4     520        419         21      500      1,707       31        3,465

Total # of people trained                                  172            113          62         50      589       42     613        419         85      500      3,316      311        6,272

# media events                                              16             33          35         45      116       42     250         98         49       18         81       31          814

# community education activities                            21             55         250        308      289       66      66        DK          27       85        404       68        1,639


OUTCOMES
total # trainers who conducted activities                  23              113          45         10        24      42     25         DK          34      45      1,060         5        1,426
# group sessions by professionals                         111              433         200          0       145      18     41           0         22       0        177       210        1,357
# group sessions by others                                 35               28          50         25       144      48     54         234         55     103        117        37          930
Total # sessions                                          146              461         250         25       289      66     95         234         77     103        294       247        2,287
# of beneficiaries at ses. by professionals             2,572           20,408      15,000          0    16,000     423    875           0        629       0      5,694     1,706       63,307
# of beneficiaries at ses. by others                      372              514       5,000      4,182    10,050   1,585  1,701      10,310      3,325   2,709      6,314     1,275       47,337
Total # of beneficiaries at sessions                    2,944           20,922      20,000      4,182    26,050   2,008  2,576      10,310      3,954   2,709     12,008     2,981      110,644
# of 1-on-1 by retired professionals                      DK               116         200          0       236     479      3           0          0       0        448     2,280        3,762
# of 1-on-1 by others                                      14               12          50        625       127     313     15          92          0      49        302        15        1,614
Total of 1-on-1                                            14              128         250        625       363     792     18          92          0      49        750     2,295        5,376
Total # of beneficiaries educated                       2,958           21,050      20,250      4,807    26,413   2,800  2,594      10,402      3,954   2,758     12,758     5,276      116,020
Est. # of people reached by media hits              2,193,300        4,425,724   8,000,000    100,000 2,500,000 65,000 126,950   6,684,675    262,900 153,135    543,300   925,000   25,979,984
Est # of people reached by com ed.                      5,803            5,038      25,000     25,000    26,050 65,000   7,953         DK         525  11,379    226,262    12,000      410,010
# complaints received                                      18              178          75        271       363      13     14         495          5      32        129     4,670        6,263
# complaints referred for action                           18               44          60         59       100      11      3         226        DK       18         28        34          601
# complaints resulting in action                          DK               DK           15         59         6     DK       0          16        DK        7         27         8          138
Medicare $ identified for recoupment                      DK               DK       76,484        DK     22,000     DK       0   1,142,680        DK    1,972      3,008       DK     1,246,144
Other $ identified for recoupment                         DK           145,705         DK         DK      1,100 112,826 12,110       1,422        DK    1,865        DK        100      275,127
Total $                                                   DK           145,705      76,484          0    23,100 112,826 12,110   1,144,102          0   3,836      3,008       100    1,521,271

Note: DK indicates grantees were unable to provide specific data.
                          Definitions



RETIRED PROFESSIONAL   These are retired individuals who were professionals (e.g.,
                       teachers, lawyers, doctors, or accountants), who are new
                       volunteers to the aging network, and who are trained to help
                       beneficiaries identify Medicare fraud.


OTHERS                 These are any other individuals who are trained to help
                       beneficiaries identify Medicare fraud.


RECRUITING             Any effort to get individuals to take the training to become a
                       trainer.


TRAINING               The process of training the trainer.


SUPPORT                Any activity to help the trainers, such as transportation,
                       renting space, printing material, and telecommunications.


TRAINED                Completed training to conduct beneficiary education.


MEDIA EVENTS           Any individual airing or publishing of media (e.g., print, radio,
                       television, or electronic) to educate beneficiaries and their
                       families about Medicare fraud. (If it is geared to trainers it is
                       recruiting.)


COMMUNITY EDUCATION
ACTIVITIES             Any beneficiary education activity not given by trainers or
                       counted as media events.
                          Definitions (continued)



BENEFICIARIES                Includes beneficiaries, family members, caregivers, and
                             others who attended sessions.


GROUP SESSIONS               Medicare fraud education sessions for beneficiaries, family
                             members, caregivers, and others led by trainers.


ONE-ON-ONE SESSION           Sessions led by trainers for an individual beneficiary and/or
                             his or her family.


COMPLAINTS                   Allegations of health care fraud and abuse reported by any
                             individual as a result of the project’s efforts.


COMPLAINTS REFERRED
FOR ACTION                   Complaints deemed worthy of referring to a Medicare
                             contractor or an investigative agency.


COMPLAINTS THAT
RESULTED IN SOME ACTION      Referrals successfully closed by a Medicare contractor or an
                             investigative agency (e.g., conviction, judgement, plea, or
                             overpayment).


MEDICARE $ IDENTIFIED
FOR RECOUPMENT               Funds where recoupment action has been initiated by a
                             Medicare contractor or a law enforcement agency.
